             MEDICARE SECONDARY PAYER PROVISION­

                  WORKING AGED IN COLORADO




                        JULY, 1986


                  CONTROL tP-07-86-00071





REGION VII                             OFFICE OF ANALYSIS AND

KASAS CITY, MISSOURI                     INSPECTIONS
                                       OFFICE OF INSPECTOR GENERAL

                                       DEPARTMENT OF HEALTH AND 

                                         HUMAN SERVICES
. "                        ..............................
                                .........................
                                   .....................
                                      ..................
                                           ..............
                               . . . . . . . . . . . . . . . . . . . . . . . . . .




                                    CONTENTS




                                                                                     Page

        I.   EXECUTIVE SUMMARY


       II. INTRODUCTION


      III. SCOPE OF REVIEW

      IV. FINDINGS AND RECOMMENDATIONS


       V.    TABLE SUMMIZ ING DOLLAR EFFECT

             OF REPORTED FINDINGS


      VI. SUMMARY OF COMMENTS

          SOLICITED AND RESPONSES

                           EXECUT IVE SUMMRY

The Office of Analysis and Inspections (OAI) conducted a program

inspection of the Medicare secondary payer provision as it rela­

tes to working aged in Colorado under the Tax Equity and Fiscal

Responsibility Act of 1982.

Health Care Financing Administration (HCFA) data indicated there
were 81 short-term hospitals in Colorado. Our inspection focused
on the 21 largest short term hospitals with 200 or more beds.
Four hospitals in Colorado, all with 200 or more beds, were

selected for review in conjunction with the inspection on working

aged.  The Colorado Foundation for Medical Care prepared for our
office a list of 50 randomly selected beneficiary discharges from

each hospital for the period January 1, 1983 - June 30, 1984.

Results of the inspection indicated that six beneficiaries, who

had received Part A and B services and a seventh beneficiary who

had received Part B services, had not been identif ied as working
aged by the contractor or hospitals.
Comparative data indicated that the four selected hospitals and

the 21 hospitals in the universe had similar character istics in

functional areas reviewed. These four hospitals, therefore,
would be considered representative of the 21 hospitals for pur­

poses of projecting an overpayment.

Based on the inspection, an actual overpayment of $36, 327 was

made by the Medicare program for Part A and B services rendered

to benef   ic iar ies assoc   iated   with the four selected hospitals.
projected to the 21 hospitals in the universe, the overpayment
would be $4, 342,   446.
                      Employer group health plans should have
been the primary payer with Medicare being billed as the secon­

dary payer. No attempt was made to project an overpayment to

those Colorado hospitals under 200 beds.
We recommend that the HCFA Regional Office require the Colorado

Medicare contractors to fully implement current guidelines

according to Federal regulations, to ensure that correct Medicare

payments are made and to initiate recovery action for all

improper payments, retroactive to January 1, 1983.


Subsequent to release of the draft report, HCFA and OAI discussed
each beneficiary case identified by OAI as working aged on a
telephone conference      call.
                            After documented ev idence was pre­
sented and discussed by both HCFA and OAI, agreement was reached
that Medicare had incorrectly paid as the pr imary payer on each
of the seven identified        cases.
from the list of beneficiaries.

                                 One case had been dropped by OAI



                                 -1­

Comments from the contractor, with HCFA' s conc rrence, indicated
that the Medicare Secondary Payer unit develops and reviews
working aged cases dating back to  1983.   Various methods are used
to identify working aged including front end audits, development
letters and a one-time mailing to potential working aged benefi­
ciaries.    In addition, hospitals have been given assistance
through bulletins, credit balance letters, workshops and, the MSP
uni t' s telephone number to assist them in obtaining essential
data to identify working aged.




                          -2­

                            II.    INTRODUCTION

This report details the findings and recommendations that
resu1 ted from this program inspection of the Medicare Secondary
Payer Prov is ion--Working Aged in Co10rado-- conducted by the
Off ice of Ana1ys is and Inspections, Off ice of Inspector General.

This inspection program was developed and implemented by the
Off ice of Ana1ys is and          Inspections.
                                      Inspections are a major
function of OAI as part of its responsibility to minimize the
opportuni ty for fraud, abuse, and waste in DHHS programs.
Specifically, program inspections:
    (1 )   Examine specific program operations and/or reimbursement
           policies and the manner in which they are implemented to
           determine if they are contributing to fraud, abuse or
           was te ,   and
    ( 2)   Demonstrate the significance of the inefficient or inef­
           fective policy or method of implementation and recommend
           changes which would improve program administration,
           contribute to ensuring that proper services are provided
           to eligible beneficiaries and/or save program dollars.
The format of this program inspection report is of an exception
type; in that, only areas requiring improvement are presented.
No conclusions regarding the overall level of an organization
performance should be drawn solely from this report.




                                    -3­

                     III.   SCOPE OF REVIEW
The Tax Equity and Fiscal Respons ibi1i ty Act of 1982, provided
that Medicare would be the secondary payer in cases where medical
care can be paid by an employer group health plan. This would
apply to those beneficiaries or their spouses, who were working,
were aged 65-69 and were a member of a plan covering those per­
sons.
Federal Regulations implementing this law were published
42 CPR 405. 340-344 on Apr  i1 13, 1983.
                                       The regulations state
that, effective for services furnished after 1982, Medicare bene­

fits (Part A and B) are secondary to benefits payable by an
employer group health plan for any month in which an individual
aged 65 through 69:
    (1 )   Is entitled to Part A benefits.

    (2 )   Is either employed or the spouse is employed and covered
           under an employer group health plan.
    ( 3)   The employer has 20 or more employees.

The Colorado Foundation for Medical Care furnished the OAI

reg iona1 off ice with a list of 50 randomly selected inpatient
discharges for each of the four selected      hospitals.
                                                       These
discharges were for beneficiaries who were aged 65-69 and were

discharged during the review period, which was January 1, 1983 ­
June 30, 1984. Onsite visits were made to these four hospitals
to obtain admission and payment    data. In addition, the Medicare
contractors furnished utilization and payment data on the 200
beneficiaries in the sample, secondary payet log information and
guidelines used to identify and process Medicare secondary payer
cases. . Ana1ysis of this data indicated that six beneficiaries or
their spouses had Part A and B services billed to the Medicare
program and a seventh beneficiary had Part B services.
HCFA data indicated there were 81 short-term hospitals in
Colorado. This  data also showed that 21 of these hospitals,
which included the four selected hospitals, had 200 or more beds.
The four hospitals reviewed were intended to represent this group
of 21 hospitals, ret1ecting similar character istcs such as size,
scope of services, utilization and average length of stay.




                            -4­

                   IV.   FINDINGS AND RECOMMENDATIONS
Finding 1


Medicare paid as Pr imary    Payer for Workinq Aged
The inspection found that out of 200 beneficiary discharges at
four selected hospitals, six beneficiaries had received Part A
and B services and a seventh beneficiary, Part B services which
had not been identified by the contractor or providers as working
aged.    Based on contractor payment data, $36, 327 was paid by
Medicare for these seven benef iciar ies as primary payer, instead
of being the secondary    payer. Projecting the overpayment in the
sample to the universe of 21 hospitals, overpayments of
$4, 342, 446 would apply for the Medicare program. No attempt was
made to project an overpayment to hospitals under 200 beds.
Comparative data was obtained and analyzed for the four selected
hospi ta1s and the 21 hospitals in the    universe.
                                                 Functional areas
reviewed indicated that the selected hospitals and the universe
of hospitals compared similarly in every    category.Therefore,
these four hospitals would be considered representative of the 21
hospitals for purposes of projecting an overpayment.
Recommenda t ion
We recommend that HCFA instruct the Medicare contractor to review
all services provided resulting from working aged cover age
beginning January    1983.
                         Applicable recovery should be made from
third party payers or providers.
Finding 2


Greater Detection Capabi1ity Needed By Medicare Contractor'
Secondary Payer Un i t

The Medicare contractors did not have the capability to identify
all working aged as evidenced by the inspection s finding of
seven working aged not identif ied by the contractor.




                             -5­

Recommendation
We recommend that HCFA instruct the Medicare contractor to
improve the secondary payer unit to more effectively identify and
correctly process MSP     cases.
                              This might involve such areas as
the expanded training of staff and utilization of applicable

detection and control procedures.

Pinding 3


Improvement Needed By Hospita1s in Obtaininq Workinq Aged

Information
Hospitals are not adequately obtaining critical information to
identify working aged beneficiaries or their spouses.
Deficiencies noted were:

     (1 )   Lack of any information regarding employment    status.
     (2 )   Lack of information regarding the date when the employee
            or spouse retired. This information is necessary in
            order to determine the time per iod covered under the
            Employer Group Heal th Plan.

     ( 3)   Failure to substantially investigate age and e1 ig ibi1 i ty
            of the Medicare benef ic iary' s spouse. Age of the spouse
            would have indicated that the spouse was aged 65 and
            over and could have qualified as working aged.
     ( 4)   Information obtained on other insurance or employment
            related insurance forms was not being transferred to the
            billing form submitted to the Intermediary. The
            Intermediary was thereby unaware of possible Employer
            Group Health Plan coverage.
Recommenda t ion
HCFA should work with the Medicare contractors to assure that
hospitals obtain essential information to identify working aged.




                             -6­

. ,




                 TABLE SUMMARIZ ING DOLLAR EFFECT OF REPORTED FINDING



                               Overpayment Projection of
                         Medicare Paid as Pr imary    Payer
                                 Ra ther Than Secondary

      Medicare                       Amount Paid               Projected
      Contractor                      in Sam                  Over       en t

      Colorado Blue   Cross           $22, 176                 $2, 650, 032
      Colorado Blue   Shield               151                       692 414
                                      $36, 327                 $4, 342, 446




                                    -7­

                     VI. SUMM Y OF COMMENTS

                      SOLICITED AND RESPONSES


Comments were received from the Health Care Financing

Administration and the Medicare contractor.
Hea1th Care Financing Administration


In its response to the draft report, HCFA concurred with the

contractor' s comments. The contractor disagreed with OAI'  s fin­

ciaries.
dings that in each of the identified working aged beneficiaries

in the draft report, Medicare should have been the secondary

payer.  One case had been dropped by OAI from the list of benef

OAI then requested supporting information from HCFA as to why
they believed Medicare had correctly paid as pr imary payer.
telephone conference call was held to discuss each of the benefi­
 iar ies contained in the report.
Subsequent to the conference call, HCFA concurred with OAI on
each of the beneficiaries identified as not having primary
coverage with Medicare. HCFA has instructed the contractor to
begin appropriate recovery action and is working with the

contractor to achieve full implementation of the recommendations

in the report.


Blue Cross and Blue Shield of Colorado


The contractor disagreed with OAI' s findings that seven benefi­
ciaries had other insurance as    primary. The contractor agreed
with OAI on one beneficiary where Medicare was secondary. These
beneficiary cases had been developed in full by the contractor
and Medicare was considered pr imary wi thin HCFA' s guidelines on
working aged. Subsequent discussion by HCFA and OAI resulted
HCFA concurring with OAI on the findings on each beneficiary.
The contractor has taken steps to identify and process working
aged cases. These include the use of front-end audits and deve­
lopment letters being sent to beneficiaries. The contractor
working with hospitals to ass ist them in obtaining more pertinent
information so as to more adequately identify working aged bene­
ficiaries.  Bulletins, credit balance letters, workshops and the
MSP contact points are being utilized to assist hospitals in this

identif ication process.



                           -8­

"-...                                          """'                           /--

               DEPARTMENT OF HEALTH 8L HUMAN SERVICES                                                                        Health Care Financing
                                                                                                                             Administration. Region VIII

               Refer to:
                                                                                                                             Memorandum
    Date:      June 27 , 1986

    From:      Associate Regional  Administrator
               Division of Financial Operations
   Subject:	   COLORADO - Medicare Secondary Payer Provisions, Working Aged in Colorado
               (CN- 07-86- 0007l) (Draft)
   To:	        Regional Inspector General for Analysis and Inspections
               Region VII, Kansas City

               Please refer to our memorandum of June 3, 1986 to you, subject as above. Our
               Division of Program Operations has reviewed available data at the contractor , Blue
               Cross and Blue Shield of Colorado, and now concurs with your findings regarding
               beneficiaries identified as not having primary coverage with Medicare. In   with                                      line
               your         request, we had already removed beneficiary Jesus Cano s name from
                        earlier

               your list.
               The contractor has been instructed to begin appropriate recovery 	
                                                                                                                          action.    As noted
               in our June 3 , 1986 letter to you,                       we will be working with the contractor to                      achieve
               full implementation of the recommendations set forth in your report.
               Please direct any inquiries you may have                                to me at         FTS 564- 2641 ,   or Ben Wilson at
               FTS 564- 2646.



                                                                                          C. Salazar, Jr.




                              RECE\VED


                                               err ,,::
                                                          'RAC
                                                   '" GE.NE
                                  \\,:S?c.li
,.
. "     ....                                                    ..        " -




J ..
                     DEPARTMENT OF HEALTH 8L HUMAN SERVICES                                   Health Care Financing
J, i.                                                                                         Administration, Region VIII

                     Refer to:

                     June 3 ,    1986
                                                                                              Memorandum
           Date:
                     Associate Regional Administrator
           From:     Division of Financial Operations
                     COLORADO - Medicare Secondary Payer Provisions, Working Aged in Colorado
          Subject:   (CN- 07 - 86- 00071) (Draft)
                     Regional Inspector General for Analysis and Inspections
          To:        Region VII , Kansas City


                     In acordance with your request, we have reviewed the subject draft report. Some
                     revisions may need to be made to your report as a result of the attached comments
                     made by the contractor. Our Division of Program Operations has reviewed the
                     contractor s comments and agrees with those comments.
                     We wil be working with the contractor to              achieve full implementation of the
                     recommendations set forth in your report, once an agreement has been reached.
                     Please direct any inquiries you may have  2646 , Extension 14 , or
                                                                to me at FTS 564-
                     Ben Wils on at FTS 564-   2646, Extension 15.


                     Attachment




                                                                     v/

                                                         lNsp %.f:IC
                                                                      OF?GfNfRAV
                                                                           Q

                    .. -




                                            CONTRACTOR FOR

                                             MEDICARE
                           Blue Cross and Blue Shield of Colorado                                 El,,
                                           700 Broadway

                                   Denver, Colorado 80273
                                               13031831. 2661
                                                    80. 332- 6681
                                         Toll Free, 1,




May 16, 1986



Mr. C. Salazar, Jr.

Associate Regional Administrator

Division of Financial Operations
Hea 1 th Care Finane ing Adm i n i strat ion
Reg i on V I I ,
Federal Office Building

1961 Stout Street

Denver ,   CO 80294
SUBJECT:       MED I CARE SECONDARY PAYER PROV I           S ION - WORKI NG AGED I N COLORADO

Dear Mr. Salazar:
The Apr i   29, 1986 report prepared by t e Off ice of the I nspector Genera I
Office of     Analysis and Inspection
                                    entitled, " Medicare Secondary Payer
Prov is ion - Working Aged in Colorado " (CN-P-07-86-00071) has been reviewed
by staff and our findings and recommendations are as follows:

             First of all, we disagree with the findings on the seven bene­
             ficiaries that were identified as having other insurance as
             primary. The only case that Medicare is secondary on is Ezra
             Goodloe, HIC 521-09- 9359A , which resulted in an overpayment of
             $882. 38.  Credit activity has been establ ished on this case.
             The projection of overpayments, therefore, should be approximately
             $105, 000, not the $4, 571, 193; thus, it is significantly lower.

             The other cases were developed in full, and Medicare is the primary
             payer within the guidel ines specified by HCFA as " working aged"
       FIND I NG I AND FIND I NG I I :

       We have an established Medicare Secondary Payer unit that handles all
       MSP activities. Working aged cases are developed and services are
       reviewed dating back to January 1983                   services.
                                                        Recovery action is taken
       as required. To identify working aged cases, several methods are used
       including front- end audits and development letters are sent to the
       beneficiaries. A " one timer " was mailed in July 1985 to all beneficiaries
       between the ages of 65 through 69 requesting " working aged" information
       (Attachment 1).
       As you note for FY 85, CPEP savings goals were met, and we are on schedule
       toward meeting the FY 86 CPEP working aged savings goals (Attachment 2),


* 120, 000 letters mailed.




                                                                                     IPO DtU MAY 1 '1
,j




     Letter to C. Salazar , Jr.

     May 16, 1986

     Page Two



               FIND I NG I II :

               Hospitals have been given MSP information through bulletins, credit
               balance letters, workshops, and all providers have been given the
               telephone number to contact the MSP unit directly (Attachment 3).

     Thank you for the opportunity to respond to the Program Inspection Report.
     If you require additional information or wish to discuss any of the comments
     in our responses in more detail, please contact either Vicki Shaw, Manager
     of Medicare Suspense (831-2949)or Pam Archuletta, Supervisor of Medicare
     Coordination of Benefits (MSP) (831-2101).

     Sincere I y



     James B. Wanebo

     D i rec   tor
     Med i ca re C I   aims
     J BW : ev
     Attachments
     cc: Tom Gillgannon, Vice President, Government Operations
